TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         The Employee Plans Function Has
                        Improved the Process for Selecting
                         Retirement Plans for Examination



                                           May 10, 2011

                              Reference Number: 2011-10-050




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


THE EMPLOYEE PLANS FUNCTION HAS                      WHAT TIGTA FOUND
IMPROVED THE PROCESS FOR
                                                     TIGTA determined that the Employee Plans
SELECTING RETIREMENT PLANS FOR                       function’s methods for selecting examinations
EXAMINATION                                          have evolved over the years and examinations
                                                     are now identifying a larger percentage of
                                                     retirement plans that are noncompliant.
Highlights                                           Identifying noncompliance through the
                                                     examination program ensures that Employee
Final Report issued on May 10, 2011                  Plans function resources are being used wisely,
                                                     and reduces the burden on plan sponsors and
Highlights of Reference Number: 2011-10-050          administrators by focusing on retirement plans
to the Acting Internal Revenue Service               most likely to have compliance issues.
Commissioner for the Tax Exempt and
Government Entities Division.                        The Employee Plans function has accomplished
                                                     this improvement by developing methods for
IMPACT ON TAXPAYERS                                  selecting examination cases that allow for
                                                     emerging issues to be considered, while taking
The primary objective of Employee Plans              into account the risk of noncompliance for the
function examinations is to determine if             retirement plan universe. For example, the most
retirement plans are operating in accordance         productive examinations (those that identify
with the tax-exempt qualification provisions of      retirement plans that are noncompliant) have
the Internal Revenue Code and within the terms       been the result of special projects, abusive
of the plan document. If a retirement plan is not    transactions, and referrals. Over the past
in compliance, the Employee Plans function           five years, these three areas have consistently
works with retirement plan officials to resolve      identified the highest degree of noncompliance.
examination issues and bring the retirement          In addition, the Employee Plans function’s
plan back into compliance. The Employee              risk-based examinations are becoming more
Plans function has improved its ability to select    productive based on historical results of
examinations that identify noncompliance, as         examinations from particular market segments.
evidenced by an increase in the percentage of
examinations where noncompliance with the            WHAT TIGTA RECOMMENDED
Internal Revenue Code has been detected.
Ensuring that plans comply with all applicable       TIGTA made no recommendations in this report.
statutes and regulations provides plan               Tax Exempt and Government Entities Division
participants with greater assurance that             management reviewed the report before it was
promised benefits will be available upon             issued and offered clarifying comments and
retirement.                                          suggestions, which have been taken into
                                                     account.
WHY TIGTA DID THE AUDIT
TIGTA initiated this audit in response to a
request from the Internal Revenue Service to
review the Employee Plans function’s selection
methodology for risk-based targeted
examinations. Our overall objective was to
determine whether the Employee Plans
function’s processes for selecting examination
cases allow for emerging issues to be
considered and take into account the risk of
noncompliance for the retirement plan universe.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 10, 2011


 MEMORANDUM FOR ACTING COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                ENTITIES DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Employee Plans Function Has Improved the
                             Process for Selecting Retirement Plans for Examination
                             (Audit # 201110002)

 This report presents the results of our review to determine whether the Employee Plans
 function’s processes for selecting examination cases allow for emerging issues to be considered
 and take into account the risk of noncompliance for the retirement plan universe. This review
 was requested by the Internal Revenue Service and is included in our Fiscal Year 2011 Annual
 Audit Plan and addresses the major management challenge of Tax Compliance Initiatives.
 We made no recommendations in this report. Tax Exempt and Government Entities Division
 management reviewed the report before it was issued and offered clarifying comments and
 suggestions, which were taken into account.
 Copies of this report are also being sent to the Internal Revenue Service managers affected
 by the report results. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                                 The Employee Plans Function Has Improved
                         the Process for Selecting Retirement Plans for Examination




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Examination Selection Methods Have Evolved and Now
          Result in More Noncompliance Being Detected .......................................... Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Treasury Inspector General for Tax Administration
          Audits Related to the Employee Plans Function’s Examination
          Selection Methods ......................................................................................... Page 18
                              The Employee Plans Function Has Improved
                      the Process for Selecting Retirement Plans for Examination




                                             Background

There are over 867,000 retirement plans in existence with assets totaling approximately
$5.3 trillion. The Employee Retirement Income Security Act1 sets uniform standards to assure
that employee benefit plans are established and maintained in a fair and financially sound
manner. The Internal Revenue Service (IRS) Employee Plans function is responsible for
ensuring sponsors of employee retirement plans comply with applicable statutes and regulations
that are designed to ensure that employees receive promised benefits. The Employee Plans
function accomplishes this by helping customers understand and comply with applicable tax laws
and by protecting the public interest by applying the tax law with integrity and fairness to all.
Retirement plan assets and participants’ benefits are
protected through a fair, objective, and effective
compliance program. One part of an effective                                 Examinations determine if
compliance program is examinations. The primary                           retirement plans are operating
                                                                          in accordance with tax-exempt
objective of examinations is to determine if retirement
                                                                          laws and the terms of the plan
plans are operating in accordance with the tax-exempt                       to ensure plan participants
qualification provisions of the Internal Revenue Code                       receive promised benefits.
and within the terms of the plan document, which is
designed to ensure that retirement plan participants
receive the benefits promised by the plan.2
Examinations are performed to ensure that retirement plan sponsors are making contributions to
the plan as required, assets truly exist to satisfy liabilities and are properly classified, and
retirement plans are operating in accordance with the plan design. If a retirement plan is not in
compliance, Employee Plans function examiners work with retirement plan officials to resolve
examination issues and bring the retirement plan back into compliance. While the primary goal
is for plans to make changes necessary to fully comply, the IRS can assess penalties, taxes, and
interest charges, or completely disqualify a retirement plan from tax-exempt status if major
violations are found.
Employee Plans function management was using the following priority order for assigning
examination work based on the timing of workload needs, the location of case work, and the
availability of resources.




1
  Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered sections of 5 U.S.C., 18 U.S.C., 26 U.S.C.,
29 U.S.C, and 42 U.S.C.).
2
  The plan document details how the plan operates and outlines plan requirements.
                                                                                                             Page 1
                              The Employee Plans Function Has Improved
                      the Process for Selecting Retirement Plans for Examination



    1) Special Projects and Abusive Tax Avoidance Transactions (hereafter referred to as
       abusive transactions) – Special projects are used to strategically select examinations
       based on the Employee Plans function’s research program, changes made to the Annual
       Return/Report of Employee Benefit Plan (Form 5500) return, historical examination data,
       and other emerging issues such as legislative changes. In addition, the Employee Plans
       function participates in an IRS-wide effort to address abusive tax shelter schemes and
       promotions. When selecting returns to be examined, special projects and abusive
       transactions are given the highest priority.
    2) Referrals – The Employee Plans function receives referrals throughout the year when
       there are questions or concerns that employers or retirement plan sponsors may not be
       complying with the Internal Revenue Code sections governing employee benefit plans.
       Referrals originate from a variety of sources both within and outside the IRS.
    3) Risk-Based Targeted (hereafter referred to as risk-based) Examinations – In
       Fiscal Year 2008, the Tax Exempt and Government Entities Division issued a report on
       compliance risk assessments that defined what it considered to be noncompliance for
       employee retirement plans and developed a market segment framework3 for selecting
       examinations to be conducted. The framework divided the population of retirement plans
       into 20 different industry segments, each with 11 different types of retirement plans.
        Between Fiscal Years 2002 and 2008, the Employee Plans function reduced the number
        of market segments and developed a risk-based approach for selecting examinations. The
        Employee Plans function accomplished this by identifying market segments for which it
        had completed examinations for a sample of plans and found significant noncompliance4
        in either the entire market segment or parts of it. The above report also described how
        the process evolved, outlined examination results, and recommended risk-based segments
        for further evaluation as a source for selecting examinations. A subsequent report in
        August 2010 described how the Employee Plans Examinations function was winding
        down its evaluation of examination results for market segments and using the knowledge
        gained from it to move forward with the risk-based approach that is currently being used.
    4) Other – Other sources of examinations include general case work and training cases,
       which are used to fill a specific business need. General case work includes returns which
       do not fall under a specific category such as those above and which are assigned to
       balance return assignments to field staff for efficient use of travel funds. Training cases
       are generally assigned to less-experienced or newly hired employees and normally
       involve simpler issues.


3
  The Employee Plans function Market Segment Framework categorizes the retirement plan universe by type of
business (e.g., manufacturing) and type of retirement plan (e.g., profit sharing).
4
  Significant noncompliance for a market segment signifies that 30 percent or more of all returns examined from the
segment resulted in a change to the Form 5500 return or the retirement plan document.
                                                                                                           Page 2
                          The Employee Plans Function Has Improved
                  the Process for Selecting Retirement Plans for Examination



This review was performed at the Tax Exempt and Government Entities Division Employee
Plans Examination function in Baltimore, Maryland, during the period September 2010 to
February 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 3
                              The Employee Plans Function Has Improved
                      the Process for Selecting Retirement Plans for Examination




                                      Results of Review

The Employee Plans function has improved its ability to select retirement plan examinations that
identify noncompliance, as evidenced by an increase in the percentage of examinations where
noncompliance with the Internal Revenue Code has been detected. Examinations are performed
to ensure that plan sponsors are making contributions to the plan as required, assets truly exist to
satisfy the liabilities and are properly classified, and plans are operating in accordance with the
plan design. Identifying noncompliance through the examination program ensures that
Employee Plans function resources are being used wisely and reduces the burden on other plan
sponsors and administrators by focusing on retirement plans most likely to have compliance
issues.
The Employee Plans function has accomplished this improvement by developing methods for
selecting examination cases that allow for emerging issues to be considered, while taking into
account the historical risk of noncompliance for the retirement plan universe. For example, the
most productive examinations5 have been the result of special projects, abusive transactions, and
referrals. Over the past 5 years, these 3 areas have consistently identified the highest degree of
noncompliance. In addition, the Employee Plans function’s risk-based examinations are
becoming more productive based on historical results of examinations from particular market
segments.

Examination Selection Methods Have Evolved and Now Result in
More Noncompliance Being Detected
To assist the Employee Plans function in meeting its mission of protecting retirement plan assets
and the benefits of plan participants, the examination program should focus its resources on
identifying noncompliant plans and bringing them back into compliance. During our audits,6 we
have determined the Employee Plans function’s methods for selecting examinations have
evolved over the years and examinations are now identifying a larger percentage of retirement
plans that are noncompliant (as evidenced by a change being made to the retirement plan return
as a result of an examination). Figure 1 shows the increase in changes made to retirement plan
returns over the past 5 fiscal years.




5
  “Most productive examinations” are those which result in identifying retirement plans that are noncompliant with
applicable laws and regulations.
6
  See Appendix IV for details of our past audit work concerning the Employee Plans function’s examination
selection methods.
                                                                                                           Page 4
                           The Employee Plans Function Has Improved
                   the Process for Selecting Retirement Plans for Examination



    Figure 1: Percentage of Examinations Resulting in a Change to the Return
                            (Fiscal Years 2006–2010)




 Source: Audit Information Management System Reports for Fiscal Years 2006 to 2010.

The reason the Employee Plans function has been able to select examinations that reveal more
noncompliance than in the past is that it has conducted analyses of historical results, continually
updated its areas of emphasis as more knowledge is gained about the retirement plan universe,
and considered issues emerging in the retirement plan community. This has resulted in increased
identification of noncompliant areas in retirement plans.
Over the last 5 years, one of the Employee Plans Examination function’s highest priorities has
been examinations related to special projects, abusive transactions, and referrals. Historically,
these sources generally resulted in a change to the tax return at a rate higher than other types of
examinations and have increasingly higher change rates over the past several years. For
example, the change rate for special project, abusive transaction, and referral examinations
increased from 67 to 81 percent from Fiscal Year 2006 to Fiscal Year 2010, and exceeded the
overall change rate shown in Figure 1 for Employee Plans examinations in each of these fiscal
years. By Fiscal Year 2010, the number of returns examined in these three areas nearly doubled
and the rate at which there was a change to the return climbed to over 80 percent. The shift in
focus to these three areas is a logical progression because these examinations result in a higher
amount of noncompliance being detected than the amount uncovered by other methods.
The Employee Plans function also developed a risk-based approach to concentrate on market
segments or parts of market segments most likely to be noncompliant. By mid-Fiscal Year 2006,
the Employee Plans function summarized results from segments of its risk-based examination
program for which there were a sufficient number of completed examinations. From that point
                                                                                             Page 5
                            The Employee Plans Function Has Improved
                    the Process for Selecting Retirement Plans for Examination



forward, the only risk-based returns assigned to field examination staff were from segments for
which the Employee Plans function had found significant noncompliance either in the entire
segment or in parts within a segment in its baseline analysis.7
Since that time, there has been an overall increase in the amount of noncompliance detected by
risk-based examinations. This correlates with the Employee Plans function’s continuing
validation of its market segments and adopting a risk-based approach to focus on particularly
noncompliant market segments or parts of market segments.
Figure 2 shows the progression of the Employee Plans function’s workload selection for
Fiscal Years 2006 through 2010.
          Figure 2: Percentage of Completed Employee Plans Examinations
                  by Major Program Areas (Fiscal Years 2006–2010)
                             Special Projects,
                Fiscal     Abusive Transactions,
                Year          and Referrals          Risk-Based      All Other       Total8
                 2006              23.1%               74.3%           2.6%          100.0%
                 2007              34.3%               61.6%           4.0%          100.0%
                 2008              33.9%               62.8%           3.3%          100.0%
                 2009              47.5%               50.3%           2.2%          100.0%
                2010               42.9%              55.1%            2.0%          100.0%
            Source: Audit Information Management System Reports for Fiscal Years 2006 to 2010.

During Fiscal Year 2006, Employee Plans function staff also began using a focused examination
methodology when analyzing returns. Using this process, Employee Plans function examination
staff narrows the scope of the examination. Initially, the examinations are assigned three
pre-identified issues that are required for consideration (based on historical data and other
criteria). The examiners are then expected to perform a pre-audit analysis, using various
resources at their disposal, including analyzing the internal controls and focusing on areas where
internal controls are weak. If initial contact with the taxpayer shows good internal controls and
no areas of concern, the scope of the examination can be limited; however, the examiner must
still address the three pre-identified issues. Conversely, if the examination staff identifies any
areas of concern, the examination can be expanded to ensure the plan is compliant in these areas.
Collectively, the implementation of these changes resulted in an overall increase in the number
of examined returns that closed with a change to the return. There were noteworthy
improvements over the past 5 fiscal years in the percentage of examinations that resulted in a

7
  The Employee Plans function’s market segment approach involved completing examinations in segments deemed
most likely to be noncompliant and identifying baseline compliance levels for those segments.
8
  Percentage may not equal 100 percent due to rounding.
                                                                                                     Page 6
                           The Employee Plans Function Has Improved
                   the Process for Selecting Retirement Plans for Examination



change for special projects, abusive transactions, referrals, and risk-based examinations, as
illustrated in Figure 3.
    Figure 3: Percentage of Examinations Resulting in a Change to the Return
                            (Fiscal Years 2006–2010)




    Source: Audit Information Management System Reports for Fiscal Years 2006 to 2010.

The following sections provide additional details on the results of:
   •   Special project, abusive transaction, and referral examinations.
   •   Risk-based examinations.
   •   Other types of examinations.

Special project, abusive transaction, and referral examinations
In recent years, the Employee Plans examination program’s emphasis has slowly shifted to the
development of special projects which combine the quantitative analyses of historical data
(similar to the risk-based model) with other information, such as recent changes to the laws
governing employee benefit plans, to select returns for examination. In addition, the Employee
Plans function has increased its focus on abusive transactions designed to obtain tax benefits not
allowed by law.
Special project and abusive transaction examinations allow the Employee Plans function the
flexibility to address issues across market segment boundaries and address any sector of the
retirement plan universe. This means that the Employee Plans function can potentially address
plans in market segments that are not currently being addressed by the risk-based examination
approach. Future special projects may also be able to address sectors of the retirement plan
                                                                                            Page 7
                              The Employee Plans Function Has Improved
                      the Process for Selecting Retirement Plans for Examination



universe that are not required to annually file a Form 5500.9 Plans are underway to determine
techniques for accomplishing this.
Referrals can come from within the Employee Plans function through its Employee Plans
Compliance Unit, from other IRS operating divisions that may be conducting tax return
examinations of an individual’s or company’s books and records, or outside sources such as the
Department of Labor. Referrals are distributed as part of the regular workload of Employee
Plans Examination function groups in lieu of being considered discretionary work. Referral
examinations have consistently resulted in very high rates of noncompliance and, as a result, a
high emphasis is placed on ensuring that all referrals are examined. The percentage of
noncompliance detected for referrals ranged from 65.5 percent to 83.8 percent from
Fiscal Year 2006 to Fiscal Year 2010.
Figure 4 contains the overall change rates and average assessments10 for special project, abusive
transaction, and referral examinations for Fiscal Years 2006 through 2010.
            Figure 4: Change Rates and Assessments: Special Project,
        Abusive Transaction, Referral Examinations (Fiscal Years 2006–2010)
                                                                               Average for Special
        Fiscal         Special          Abusive                                 Projects, Abusive
         Year          Projects       Transactions       Referrals        Transactions, and Referrals
                                                Change Rate
         2006            66.2%            81.3%            65.5%                       67.0%
         2007            49.9%            90.6%            73.2%                       62.9%
         2008            57.8%            85.0%            78.6%                       70.2%
         2009            62.3%            88.1%            83.8%                       76.2%
         2010            72.2%            89.8%            75.7%                       80.4%
                                            Average Assessment11
        2006             $1,045          $20,971          $1,754                       $2,791
        2007              $778           $1,716           $1,964                       $1,178
        2008             $1,102          $13,741         $140,575                      $1,891
        2009             $2,337          $13,349          $17,896                      $2,824
        2010             $1,991          $18,064          $24,235                      $3,462
      Source:    Audit Information Management System Reports for Fiscal Years 2006 to 2010.




9
  The Form 5500 instructions outline plans that are not required to file Form 5500. These include governmental
plans, certain church plans, and selected plans having only one participant.
10
   While examinations are primarily geared toward determining whether retirement plans comply with the Internal
Revenue Code provisions, assessments are another indicator of whether the Employee Plans function is identifying
transactions or events that are not consistent with retirement plans’ tax-exempt status.
11
   For Fiscal Years 2009 and 2010, we excluded 4 plans that had 17 large assessments, which exceeded $2 million
for each assessment. These 17 assessments accounted for 93 percent of the total for this 2-year period.
                                                                                                          Page 8
                              The Employee Plans Function Has Improved
                      the Process for Selecting Retirement Plans for Examination



Given the overall high change rates, examinations associated with special projects, abusive
transactions, and referrals are identifying more compliance problems, providing better protection
of taxpayers’ retirement funds, and using Employee Plans function examination resources in an
efficient and effective manner. Also, since projects can be the result of a number of factors
including the type of plan and/or the issue involved, selection of work may cross market
segments, which provides broader coverage for segments that may not have historically shown a
high rate of noncompliance and thus may not be included if the risk-based approach were the
only method being used.

Risk-based examinations
During Fiscal Year 2001, the Employee Plans function started a risk assessment approach to
analyze its customer population by dividing its retirement plan population into market segments
based on plan type and principal business activities. Between Fiscal Years 2002 and 2006, the
Employee Plans function’s market segment approach went through several modifications,
including reducing the number of market segments, tracking and evaluating the extent of
noncompliance as market-segment examinations were completed, and changing sampling
methods to be more efficient.
Beginning in Fiscal Year 2006, the Employee Plans function refined the market-segment
approach to direct resources to segments having the most noncompliance. To accomplish this,
Employee Plans function management decided to stop working on any new market segments and
concentrate on finishing market segments with examinations in process.
From that point forward, the only market-segment returns assigned to the Employee Plans
examination staff were from segments, referred to as risk-based segments, determined to be
highly noncompliant through baseline examinations.12 In general, examiners are assigned cases
from this category when there are either no cases from special projects, abusive transactions, and
referrals remaining or when the examiners’ skills do not match up with the skills required to
perform higher priority examinations.
When summarizing the results of its initial market-segment approach, the processes that the
Employee Plans function used included a sufficient number of examinations to conclude the
results were reliable. In addition, the Employee Plans function used a sound process to validate
its market-segment approach and ensure it identified productive sources for examinations. This
process included completing its analysis of seven market-segments and posting detailed
summaries to the “public” portion of its web site. Each summary included an overall assessment
of compliance within the segment (e.g., high noncompliance) and a detailed description of any
noncompliance noted during examinations. Also included were suggested actions that plan
sponsors could take to avoid errors resulting in noncompliance. For these 7 segments, Employee

12
 Baseline examinations refer to the Employee Plans function’s initial efforts to determine the percentage of a given
market-segment’s population that was noncompliant.
                                                                                                            Page 9
                             The Employee Plans Function Has Improved
                     the Process for Selecting Retirement Plans for Examination



Plans staff completed 7,175 examinations, of which 2,723 (38 percent) resulted in a change to
the return.
As shown previously in Figure 3, these examinations resulted in a change to the tax return at a
rate lower than the special project, abusive transaction, and referral examinations and the overall
rate for Employee Plans function examinations as a whole. However, since Fiscal Year 2006 the
Employee Plans function has improved its ability to identify noncompliance related to returns
selected using a risk-based approach, as shown in Figure 5 below.
        Figure 5: Change Rates and Assessments: Risk-Based Examinations
                             (Fiscal Years 2006–2010)
                                  Fiscal                          Average
                                   Year       Change Rate        Assessment
                                   2006           42.0%              $1,247
                                   2007           52.3%               $367
                                   2008           54.2%              $1,205
                                   2009           57.4%              $2,225
                                  2010             53.7%            $1,088
                               Source: Audit Information Management System
                               Reports for Fiscal Years 2006 to 2010.

Prior to the above changes, the processes used to select specific types of plans for examination
had historical change rates that were significantly lower. For example, staff from the Employee
Plans function provided data for the historical change rate13 associated with specific risk-based
segments. This information also included the results of examinations from the initial
risk-assessment process completed during Fiscal Years 2004 to 2006 and from examinations
completed as part of the risk-based targeted approach used starting in Fiscal Year 2006.
Figure 6 shows the evolution of the Employee Plans function’s examination approach since the
1990s, as well as the improvement in the percentage of noncompliance detected for 10 risk-based
segments, which accounted for nearly 70 percent of all closures since the inception of the
market-segment approach. Almost all segments show a marked increase in noncompliance
detected in the early years of the market segment approach compared to the 1990s. Most
segments show an even greater percentage of noncompliance being detected since moving to the
risk-based approach in Fiscal Year 2006.




13
  Historical rate is based on information from the 1990s. This rate was computed by dividing the number of
completed examinations that involved a change to the return by the total number of completed examinations.
                                                                                                        Page 10
                               The Employee Plans Function Has Improved
                       the Process for Selecting Retirement Plans for Examination



    Figure 6: Comparison of Historical Change Rates for 10 Market Segments
                                                                                         Risk
                                                                       Historical    Assessment       Risk-Based
                                                                        Change         Baseline      Examinations
                                                                         Rate        Change Rate     Change Rate
                                                                      (Overall for   (Fiscal Years   (Fiscal Years
       Plan Type       Risk-Based Market Segment                        1990s)        2002–2004)      2006–2010)

          401k         Professional, Scientific, Technical Services     21.0%           49.8%           44.1%

          401k         Wholesale                                        22.1%           39.0%           44.3%

      Profit Sharing   Wholesale                                        22.6%           33.9%           39.5%

          401k         Health Care & Social Assistance                  23.1%           33.6%           45.7%

          401k         Finance & Insurance                              20.2%           29.5%           40.6%

          401k         Manufacturing                                    23.6%           35.3%           46.8%

          401k         Construction                                     21.0%           41.1%           42.8%

      Profit Sharing   Construction                                     22.8%           16.6%           43.0%

          401k         Retail                                           22.8%           44.3%           55.7%

      Profit Sharing   Manufacturing                                    24.2%           28.5%           42.0%
     Source: Treasury Inspector General for Tax Administration analysis of Return Inventory and
     Classification System data.

Contributing to this improvement may be the use of a focused-examination approach adopted
during Fiscal Year 2006. In the focused-examination approach, the emphasis is on evaluating
the overall compliance level of the plan using a number of specific factors, including an
assessment of the plan’s system of internal controls. The intent of focused examinations is to
take advantage of known areas of noncompliance by prioritizing several issues before the
examination begins. These issues are selected based upon either historical data or other
meaningful factors.
While having a lower change rate than special project, abusive transaction, and referral
examinations, risk-based examinations protect taxpayers’ retirement funds by providing
examination coverage to areas that have been historically noncompliant. This will ensure
resources are focused on high-priority areas each year.

Other types of examinations
The number of examinations selected for other reasons has increased due to the hiring of
examiners needing experience with less complicated issues. As with many IRS functions, the
Employee Plans function has hired new staff to conduct examinations. Training cases are
assigned to newer staff as they complete formal classroom training.


                                                                                                                Page 11
                            The Employee Plans Function Has Improved
                    the Process for Selecting Retirement Plans for Examination



The volume of training cases more than tripled between Fiscal Years 2009 and 2010, accounting
for over 8 percent of all completed Employee Plans function examinations in Fiscal Year 2010.
These examinations provide a means for newer staff to begin working actual cases as part of
developing their skills to complete more complex examinations in the future.
In addition, examiners from the Employee Plans function also assist staff from other operating
divisions who discover potential compliance issues in the course of their duties. Examinations
worked in conjunction with other IRS functions accounted for less than 1 percent of all
Employee Plans function examination activity from Fiscal Years 2006 to 2010 and provide a
means for ensuring that compliance issues, which may not otherwise be identified, are
considered for examination. Figure 7 provides more detailed information.
                      Figure 7: Training Cases and Examinations
                Worked With Other IRS Functions (Fiscal Years 2006–2010)
                              Training Cases                Cases Worked With Other IRS Functions
       Fiscal       Total     Percent of All   Change         Total        Percent of All   Change
       Year        Closures   Examinations      Rate         Closures      Examinations      Rate
        2006         552          7.2%          57.1%           62              0.8%        28.9%
        2007         486          6.1%          71.6%           53              0.7%        50.9%
        2008         399          5.4%          73.4%           15             0.2%         60.0%
        2009         284          4.1%          77.5%           33             0.5%         42.4%
        2010         893          8.3%         62.7%            24              0.2%        29.1%
    Source: Audit Information Management System Reports for Fiscal Years 2006 to 2010.




                                                                                                 Page 12
                          The Employee Plans Function Has Improved
                  the Process for Selecting Retirement Plans for Examination



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Employee Plans function’s
processes for selecting examination cases allow for emerging issues to be considered and take
into account the risk of noncompliance for the retirement plan universe. To accomplish this
objective, we:
I.     Analyzed the Employee Plans function’s market-segment and risk-based approaches to
       determine whether areas of noncompliance were effectively being identified.
       A. Determined whether the results used to summarize each market segment and create
          the risk-based approach included sufficient information to conclude that the results of
          the risk analysis were reliable.
       B. Determined whether processes for validating the market-segment and risk-based
          approaches were sufficient to ensure that the risk-assessment process was
          appropriately identifying productive sources of examinations.
       C. Determined whether the Employee Plans function was sufficiently updating the
          market-segment and refining the risk-based approaches to be consistent with current
          trends in retirement plans.
       D. Analyzed the results of risk-based examinations to ensure the market-segment and
          risk-based approaches are a useful tool for identifying areas of noncompliance and
          selecting returns for examination including:
           1. The percentage of examination workload.
           2. The percentage of closed examinations that resulted in a change to the return.
           3. The average amount of additional assessments for closed examinations.
           4. A comparison of risk-based examinations to other sources of examinations and
              assessing whether the source had been prioritized appropriately.
II.    Determined whether the Employee Plans function’s processes ensured that retirement
       plans identified as a special project were being appropriately considered and evaluated
       for examination.
       A. Determined whether the Employee Plans function was sufficiently identifying special
          projects to address the current retirement-plan universe, e.g., retirement plans that are
          not required to file Form 5500.

                                                                                           Page 13
                          The Employee Plans Function Has Improved
                  the Process for Selecting Retirement Plans for Examination



       B. Determined whether the Employee Plans function was proactively acting on current
          economic and retirement plan issues by identifying issues as a special project.
       C. Analyzed the results of special-project examinations to ensure those examinations are
          a useful tool for identifying areas of noncompliance and selecting returns for
          examination including:
          1. The percentage of examination workload.
          2. The percentage of closed examinations that resulted in a change to the return.
          3. The average amount of additional assessments for closed examinations.
III.   Determined whether the Employee Plans function’s processes ensured that retirement
       plans identified by referral (including cases from the Employee Plans Compliance Unit)
       were being appropriately considered and evaluated for examination.
       A. Determined whether corrective actions taken as a result of one of our previous audits
          ensured that potentially productive referrals were being timely selected and
          examined.
       B. Analyzed the results of the referral program to ensure it was a useful tool for
          identifying areas of noncompliance and selecting returns for examination including:
          1. The percentage of examination workload.
          2. The percentage of closed examinations that resulted in a change to the return.
          3. The average amount of additional assessments for closed examinations.
IV.    Determined whether the Employee Plans function was selecting workload for
       examination using methods other than the risk-based approach, special projects, abusive
       transactions, and referrals.
       A. Determined the volume of workload that was selected for examination by other
          sources.
       B. Determined the reasons for using resources in this manner (e.g., training, insufficient
          workload for a geographic location, insufficient workload for a certain grade level,
          etc.).
       C. Analyzed the results of selecting workload in this manner to ensure methods other
          than the risk-based approach are a useful tool for identifying areas of noncompliance
          and selecting returns for examination including:
          1. The percentage of examination workload.



                                                                                          Page 14
                          The Employee Plans Function Has Improved
                  the Process for Selecting Retirement Plans for Examination



           2. The percentage of closed examinations that resulted in a change to the return.
           3. The average amount of additional assessments for closed examinations.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS Employee Plans function’s
policies, procedures, and practices for identifying and selecting retirement plans for examination
to determine if they are in compliance with all applicable laws and regulations. We evaluated
these controls by interviewing management, and reviewing examination results and data related
to ongoing and completed examination activities. We also reviewed IRS data publications and
Employee Plans function examination operation information. We relied on information
accumulated by the IRS and the Employee Plans function in established reports and did not
verify its accuracy.




                                                                                          Page 15
                         The Employee Plans Function Has Improved
                 the Process for Selecting Retirement Plans for Examination



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Steve T. Myers, Lead Auditor
Melinda H. Dowdy, Auditor
Michael A. McGovern, Auditor




                                                                                  Page 16
                         The Employee Plans Function Has Improved
                 the Process for Selecting Retirement Plans for Examination



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 17
                            The Employee Plans Function Has Improved
                    the Process for Selecting Retirement Plans for Examination



                                                                                          Appendix IV

    Treasury Inspector General for Tax Administration
     Audits Related to the Employee Plans Function’s
             Examination Selection Methods

Over the past 9 years, we have conducted many audits of the Employee Plans function’s
programs and processes. The following reports provide a chronology showing how the
Employee Plans examination-selection methods have changed over time.
    •   Fiscal Year 2002 – In Fiscal Year 2002, we first reviewed the Employee Plans function’s
        methods for selecting examinations. At the time, we determined that not all examinations
        selected for audit were designed to focus on areas representing the greatest risk of
        noncompliance. In response, the Employee Plans function stated that it intended to
        develop a Risk-Assessment Program to ensure that returns selected for examination have
        a high probability of noncompliance.1
    •   Fiscal Year 2003 – We reviewed the Employee Plans function’s progress and noted that
        it had implemented a Risk-Assessment Program that categorized plans into 20 industry
        segments and 11 plan types within each industry segment, for a total of 220 distinct
        market segments. We also determined the Risk-Assessment Program established
        priorities for selecting examinations in each of the market segments. However, validating
        data in all market segments would require a significant amount of time; therefore, we
        recommended a comprehensive, long-term plan to ensure resources are focused on the
        highest priority areas each year.2
    •   Fiscal Year 2004 – We conducted a review of the Tax Exempt and Government Entities
        Division’s abusive transaction program and determined that Division management had
        recently begun to develop a Division-wide program to address abusive transactions
        within its customer segments. We recommended the Tax Exempt and Government
        Entities Division develop some common processes to identify and reduce abusive
        transactions within its customer base. We also determined the Employee Plans function




1
  Additional Improvements Will Better Focus the Employee Plans Function’s Examinations Workplan on Areas That
Identify and Correct Noncompliance (Reference Number 2002-10-143, dated August 16, 2002).
2
  Clarifying Goals and Refining Processes Would Improve the Employee Plans Risk Assessment Program
(Reference Number 2003-10-200, dated September 26, 2003).
                                                                                                    Page 18
                            The Employee Plans Function Has Improved
                    the Process for Selecting Retirement Plans for Examination



        planned to establish a Compliance Unit in Fiscal Year 2005 to perform analysis to
        identify abusive scheme trends.3
    •   Fiscal Year 2007 – We reviewed the Employee Plans function’s processing of referrals
        and determined that referrals were highly productive examinations. During the audit, the
        Employee Plans function changed its workload-selection methods to ensure referrals
        were distributed as part of the regular workload of Employee Plans Examination function
        groups, instead of being considered discretionary work.4
    •   Fiscal Year 2010 – We identified retirement plan trends based on a wide range of
        statistical indicators. However, we were not able to provide information about retirement
        plans that are not required to file a Form 5500 such as churches and government
        agencies. We determined the number and types of plans had increased dramatically over
        the past 30 years. We also determined that the trends reflected in our report could
        dramatically change in the future given the instability in investments in recent years, the
        resulting impact on retirement plans, and legislative changes being considered by
        Congress.5




3
  The Tax Exempt and Government Entities Division Strategy for Abusive Tax Avoidance Transactions Needs
Further Development (Reference Number 2004-10-190, dated September 29, 2004).
4
  Employee Plans Noncompliance Referrals Are Productive Sources of Work, but Processing Controls Need to Be
Improved (Reference Number 2007-10-185, dated September 24, 2007).
5
  Statistical Trends in Retirement Plans (Reference Number 2010-10-097, dated August 9, 2010).
                                                                                                    Page 19
